                                      TVA RESTRICTED INFORMATION




Memorandum from the Office of the Inspector General



September 18, 2012

Peyton T. Hairston, Jr., WT 7B-K

REQUEST FOR FINAL ACTION – AUDIT 2011-14158 – CRAFT LABOR SHORTAGE
RISK MITIGATIONS COULD BE IMPROVED



Attached is the subject final report for your review and final action. Your written
comments, which addressed your management decision and actions planned or taken,
have been included in the report. Please notify us within one year from the date of this
memorandum when final action is complete.

Information contained in this report may be subject to public disclosure. Please advise
us of any sensitive information in this report that you recommend be withheld.

If you have any questions, please contact Amy R. Rush, Audit Manager, at (865) 633-7361
or Lisa H. Hammer, Director, Operational Audits, at (865) 633-7342. We appreciate the
courtesy and cooperation received from your staff during the audit.




Robert E. Martin
Assistant Inspector General
 (Audits and Evaluations)
ET 3C-K

ARR:DBS
Attachment
cc: See page 2




      WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
       distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
                is not to be further distributed without prior approval of the Inspector General or his designee.

                                      TVA RESTRICTED INFORMATION
Peyton T. Hairston, Jr.
Page 2
September 18, 2012



cc (Attachment):
      Katherine J. Black, LP 3A-C
      Steven E. Birchfield, MR 6D-C
      Robert M. Deacy, Sr., LP 5D-C
      Micheal B. Fussell, WT 9B-K
      Kimberly S. Greene, WT 7C-K
      Janet C. Herrin, WT 7A-K
      Joseph J. Hoagland, WT 7C-K
      Tom Kilgore, WT 7B-K
      Richard W. Moore, ET 4C-K
      Jerry L. Payton, WT 8B-K
      Emily J. Reynolds, OCP 1L-NST
      Michael D. Skaggs, LP 6A-C
      Dennis R. Spencer, LP 3K-C
      Susan M. Stout, LP 3A-C
      Preston D. Swafford, LP 3R-C
      Robert B. Wells, WT 9B-K
      OIG File No. 2011-14158




                          TVA RESTRICTED INFORMATION
 


        
                              TVA RESTRICTED INFORMATION


                                                                                Audit Report
 
Office
      of the Inspector General                                                                                               

                                                                    To the Senior Vice President,
                                                                    Diversity and Labor Relations  
                                                                                                                             

 

 

 

 

CRAFT LABOR SHORTAGE
 

 
RISK MITIGATIONS
 

COULD BE IMPROVED 
 



 




 

 
 
 

 
Audit Team                                                                                                  Audit 2011-14158
Amy R. Rush                                                                                               September 18, 2012
Maria V. Edwards
Jessica L. Monroe
            WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
            distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
                    is not to be further distributed without prior approval of the Inspector General or his designee. 


                            TVA RESTRICTED INFORMATION
Office of the Inspector General                                             Audit Report
 

ABBREVIATIONS
D&LR                       Diversity and Labor Relations
ERM                        Enterprise Risk Management
FGD&C                      Fossil Generation Development and Construction
FPG                        Fossil Power Group
FY                         Fiscal Year
GC                         Generation Construction
IRP                        Integrated Resource Plan
NC                         Nuclear Construction
NPG                        Nuclear Power Group
SVP                        Senior Vice President
TEICC                      Tennessee Energy, Industry, and Construction Consortium
TVA                        Tennessee Valley Authority




Audit 2011-14158

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                     Audit Report
 

TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVE, SCOPE, AND METHODOLOGY ........................................ 2

FINDINGS ..................................................................................................... ….3

CONCLUSION............................................................................................ ….14

RECOMMENDATIONS ............................................................................ ….15

MANAGEMENT’S RESPONSE AND OUR EVALUATION.............. ….16


APPENDIX
MEMORANDUM DATED SEPTEMBER 7, 2012, FROM PEYTON T.
HAIRSTON, JR., TO ROBERT E. MARTIN




Audit 2011-14158

                                     TVA RESTRICTED INFORMATION
                                          Audit 2011--14158 – T
                                                              TVA Crafft Labor S
                                                                               Staffing
                                                               EXECUTIV
                                                                      VE SUMM
                                                                            MARY

As
A part of ou ur annual audit plan, we w audited T  Tennessee   e Valley Autthority’s (TVVA)
craft labor sttaffing, whicch was iden ntified by T
                                                  TVA as one of its top fivve risks in ttwo
risk categoriies: (1) taleent manage  ement and (2) capacityy expansion    n and
constructionn. Our audit objective was to asse     ess TVA’s plans to miitigate the rrisks
and potentia al effects off craft labor shortages and evalua   ate TVA’s pperformance    e to
date. Our audit scope included th     he mitigationn plans as defined in T TVA’s
Enterprise
E           Risk
            R Management (ER         RM) docume    ent dated July 13, 2011, and
additional mitigations
            m            fo
                          or contractoor craft laboor within the
                                                               e Generatioon
Construction
C            n, Coal Ope  erations, Ga as Operatio ons, Nuclea ar Construcction, and
Nuclear
N         Powwer Group (NPG)
                          (           anizations.i Our objecttives were tto assess
                                   orga
TVA’s
T       (1) mitigation of craft labor risks assocciated with (a) competition from o    other
companies anda (b) a sh   hrinking labbor pool and d (2) processs for identtifying craft
 abor risks. We
la           W focused    d on TVA’s plans with regard to the contracttor craft
workforce.
w

TVA’s
T       craft labor
              l       workfforce is com  mprised of a annual emp   ployees and d contractorr
la
 abor. Craft labor includes, but is not limited to, laborerss, boilermakers,
bricklayers, machinists, electrical workers,
                                          w         iro
                                                      onworkers, equipmentt operators,
painters, steeamfitters, and
                           a roofers     s. Annual ccraft employyees are sa    alary employees
re
 esponsible for perform   ming operatiions and m aintenance        e as well ass modificatio ons.
TVA
T     uses twwo types of contractor craft labor.. Staff augm        mented craaft supplement
th
 he TVA worrkforce and    d are under the supervvision of a T      TVA employyee. This tyype
of craft may be broughtt in to assis     st with operrations and maintenan    nce or
modification
m              s if the skilll level or the amount o  of work excceeds the ab   bility or num
                                                                                            mber
of annual cra aft employe  ees. Manag     ged task crraft are man   naged by a supplier w  who
is
 s providing services to  o TVA. This    s type of craaft is utilize
                                                                   ed for some maintenan    nce
and modifica  ation and all construction projectss at TVA. B        Both types of craft are e
necessary to  o help TVA achieve its     s future longg-term goals as contained in its
 ntegrated Resource
In           R            Pllan (IRP).

TVA’s
T       Admin nistrative Services
                         S         is responsible
                                      r           e for building and main ntaining the e
quality and effectivenes
             e            ss of TVA’s s workforce. As part o  of this respo
                                                                          onsibility,
Administrativ
A             ve Services s’ Diversity and Labor Relations ((D&LR) org    ganization
negotiates laabor agreem  ments with the Tennesssee Valleyy Trades an     nd Labor
Council.
C         The risk of cra aft labor shortage wass identified and include  ed on TVA’s
fiscal year 2011 ERM document.
                         d              TVA mitigaation actionns for addreessing craft
 abor risk inc
la           cluded (1) scheduling
                          s            of nuclear aand fossil ooutages thaat enable a
stteady streaam of work to the alrea  ady existingg labor workkforce; (2) ccraft training
programs; (3 3) benchma   arking with the Utility, Building, annd Construction Indusstry

                                                            
i
     When this re
                eview was initia
                               ated, the organiizations in scop
                                                              pe were Fossil Generation De evelopment and
     Construction (FGD&C), Fos  ssil Power Group (FPG), Nucclear Generatio   on Developmen nt and Construcction,
     and NPG. During
                D     this revie
                               ew, TVA annou unced an organ   nizational realig
                                                                              gnment, which affected the
     organization names.
                                                                                                          Page i

                                                          TVA RES
                                                                STRICTED INF
                                                                           FORMATION
                      Audit 2011--14158 – T
                                          TVA Crafft Labor S
                                                           Staffing
                                    EXECUTIV
                                           VE SUMM
                                                 MARY

Employer
E          Asssociation for
                         f additional mitigatioon actions; a
                                                           and (4) incrreasing
compensatio  on and benefits marginnally above e market levvels and/or utilizing other
crafts with th
             he skill sets
                         s necessary
                                   y for the job
                                               b.

Based
B       on ouur review off TVA’s plans and actions to mitig   gate the rissk and potential
effects of cra
             aft labor shortages, we e determine ed plans an nd actions w  were
in
 nadequate tot aid in thee achievemment of futurre goals as identified in TVA’s IRP.
Specifically,
S             we determ mined risk mitigation
                                   m           acctions relate
                                                             ed to comp  petition needds
im
 mprovemen  nt and deficciencies exissted in risk planning a and mitigatio on related tto
th
 he shrinkingg labor poool. In additio
                                     on, we note ed improvem  ments could be made to
th
 he process for assessing and mo    onitoring ris k related to
                                                             o craft laborr.

TVA
T    has pas ssed the management of craft lab     bor risk to ccontractorss, unions, annd
other organizations. In n our opinion, TVA, as part of its e   economic d developmen   nt
mission,
m          has
             s an obligattion to participate in effforts to rep
                                                              plenish shrinnking craft
la
 abor pools. In additionn, to achievve long-term m future goa  als as identtified in TVA
                                                                                       A’s
IR
 RP, it is nec
             cessary to develop
                         d        acttions for atttracting andd retaining craft labor
and/or look for
             f alternative solution ns to achievve those go   oals.

We
W recomm  mend the Seenior Vice President,
                                P          D
                                           D&LR, in co
                                                     onjunction w
                                                                with Generaation
Construction
C          n, Coal Ope
                     erations, Ga
                                as Operatioons, Nuclea
                                                     ar Construcction, and N
                                                                           NPG:

1. Obtain more
          m     accura
                     ate and use
                               eful contracttor craft data to utilize in the outa
                                                                                age
   planning process.

           pect to the risk of craftt labor shorrtages arising from com
2. With resp                                                          mpetition:

          ement actions to monittor and/or m
       Imple                                mitigate the
                                                       e risk ratherr than rely o
                                                                                on
       outsid
            de parties to do so.
      Consider perform
                      ming and ce
                                entralizing labor studie
                                                       es for TVA projects.

3. Monitor training
            t       of craft
                       c     and ap         hip records to determin
                                  pprenticesh                       ne whether the
   mitigation
            n action is adequately
                        a         y addressing
                                             g the risk o
                                                        of craft labor shortagess. In
   lieu of monitoring, consider
                       c        implementingg Electric Poower Resea  arch Institute
   Standard dized Task Evaluations s.

4. Reassesss the risk severity
                      s        and
                                 d mitigation strategies to verify rissk severity and
   determin
          ne whether additional/aalternative m
                                             mitigation a
                                                        actions nee ed to be
   implemented to aliggn with curre
                                  ent manage ement initia
                                                        atives such as Diet and
   Exercise.

5. Update the ERM do ocumentatio  on to only reeflect those
                                                          e mitigation
                                                                     n strategies that
           ned to be utilized or arre being uti lized.
   are plann

                                                                                      P
                                                                                      Page ii

                              TVA RES
                                    STRICTED INF
                                               FORMATION
                     Audit 2011--14158 – T
                                         TVA Crafft Labor S
                                                          Staffing
                                  EXECUTIV
                                         VE SUMM
                                               MARY

6. With resppect to the risk of craftt labor shorrtages arising from a sshrinking labor
   pool, identify:

      Additional option
                       ns for attrac
                                   cting new e
                                             entrants to tthe trades a
                                                                     and labor
       workfforce.
      Oppo
          ortunities wh
                      here craft la
                                  abor could be reduced
                                                      d.

7. Collabora
           ate with Ris
                      sk Management to avooid duplicattion of risk across ERM
                                                                            M
   categorie
           es and asseess whethe
                               er gaps occur in mitiga
                                                     ation strateggies.

8. Establish
           h an interna
                      al process for
                                 f monitori ng the risk,, severity, a
                                                                    and mitigation
   actions when
           w     changges occur in
                                 n the busine
                                            ess environ
                                                      nment and on a more
   frequent basis than semiannua ally.

9. Institute a process for
                       f transferrring knowle         uilding relattionships w
                                            edge and bu                      within
   and outside TVA fro om the Senior Program
                                           m Managerr, D&LR, to other
   individua
           als within D&
                       &LR.

TVA
T   management agre   eed with the
                                 e findings a
                                            and recommmendations but took
exception to
           o a quote us
                      sed in the re
                                  eport. We have addre essed mana
                                                                agement’s
comment. See
           S the App  pendix for TVA’s
                                 T      compplete response.




                                                                                  P
                                                                                  Page iii

                             TVA RES
                                   STRICTED INF
                                              FORMATION
Office of the Inspector General                                                                      Audit Report


BACKGROUND
Tennessee Valley Authority’s (TVA) craft labor workforce is comprised of annual
employees and contractor labor. Craft labor includes, but is not limited to,
laborers, boilermakers, bricklayers, machinists, electrical workers, ironworkers,
equipment operators, painters, steamfitters, and roofers. Annual craft employees
are salary employees responsible for performing operations and maintenance as
well as modifications. TVA uses two types of contractor craft labor. Staff
augmented craft supplement the TVA workforce and are under the supervision of
a TVA employee. This type of craft may be brought in to assist with operations
and maintenance or modifications1 if the skill level or the amount of work
exceeds the ability or number of annual craft employees. Managed task craft are
managed by a supplier who is providing services to TVA. This type of craft is
utilized for some maintenance and modification and all construction2 projects at
TVA. Both types of craft are necessary to help TVA achieve its future long-term
goals as contained in its Integrated Resource Plan (IRP). Annual and contractor
craft labor are each represented by a trades and labor council. While annual
employees are not required to belong to a union, contractors for TVA projects
equal to or exceeding $250,000 and subcontractors for projects equal to or
exceeding $100,000 are required by contractual agreement with TVA to hire
union labor.3 Contractor craft labor, regardless of whether utilized for managed
task or staff augmentation, are selected from the same union halls.

TVA’s Administrative Services organization is responsible for building and
maintaining the quality and effectiveness of TVA’s workforce. As part of this
responsibility, Administrative Services’ Diversity and Labor Relations (D&LR)
organization negotiates labor agreements for work performed by contractors with
the Tennessee Valley Trades and Labor Council, which is composed of
individuals representing fifteen international unions. Specifically, for contractor
craft, D&LR negotiates a long-term Project Maintenance and Modification
Agreement and a long-term Construction Project Agreement with the Council.
These project agreements define the terms and conditions of the workers
covered by the agreements and require the provisions will be binding upon the
contractor and the Council unions during the agreements’ term and renewal.

Specific requirements outlined in the project agreements include, but are not
limited to, the payment of prevailing wages to contractor craft and restrictions
related to geographical and craft jurisdictions. Geographical jurisdictions refer to
the defined area a union is chartered to organize or represent. Craft jurisdiction
refers to the performance of certain types of work only by members of the union

                                                            
1
     Maintenance and modification work, as defined, includes maintenance, renovation, modification,
     addition, and/or repair to existing plants and transmission facilities. All work directly related to the
     mechanical operation of the plant that does not involve the addition of new capacity is considered as
     maintenance or modification.
2
     Construction, as defined, includes construction work at a new or existing plant site directly related to the
     construction of new generating capacity or transmission construction.
3
     TVA is not required by statute or regulation to utilize union labor.
Audit 2011-14158                                                                                           Page 1

                                                           TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                        Audit Report


who are skilled in that craft area. Project agreements state unions should
(1) strongly encourage represented individuals to transfer or move between TVA
projects and (2) make exception to any agreements by setting one-time
agreements, if necessary, to ensure work is properly staffed. Instances may
occur where TVA must utilize craft outside the local unions, referred to as
travelers, and/or substitutions4 of craft. In order to utilize these types of craft,
TVA must discuss this with the Council.

The risk of craft labor shortage was identified and included on TVA’s fiscal year
(FY) 2011 Enterprise Risk Management (ERM)5 document. Specifically, the risk
was defined by D&LR as the “risk to TVA construction and maintenance projects
associated with regional shortages of qualified craft labor used by TVA vendors.”
According to recent news articles and governmental statistics, this risk has been
identified as an industry-wide issue. TVA’s documented mitigation actions for
addressing craft labor risk included (1) scheduling of nuclear and fossil outages
that enable a steady stream of work to the already existing labor workforce,
(2) craft training programs, (3) benchmarking with the Utility, Building, and
Construction Industry Employer Association for additional mitigation actions, and
(4) increasing compensation and benefits marginally above market levels and/or
utilizing other crafts with the skill sets necessary for the job.

OBJECTIVE, SCOPE, AND METHODOLOGY
As part of our annual audit plan, we audited TVA’s craft labor staffing, which was
identified by TVA as one of its top five risks in two risk categories: (1) talent
management and (2) capacity expansion and construction. Our audit objective
was to assess TVA’s plans to mitigate the risks and potential effects of craft labor
shortages and evaluate TVA’s performance to date. Our audit scope included
the mitigation plans as defined in TVA’s ERM document dated July 13, 2011, and
additional mitigations for contractor craft labor within the Generation Construction
(GC), Coal Operations, Gas Operations, Nuclear Construction (NC), and Nuclear
Power Group (NPG) organizations.6
Our objectives were to assess TVA’s (1) mitigation of craft labor risks associated
with (a) competition from other companies and (b) a shrinking labor pool and
(2) process for identifying craft labor risks. We focused on TVA’s plans with
regard to the contractor craft workforce.

To achieve our objective we:

      Interviewed TVA Administrative Services, Financial Services, GC, Coal
       Operations, NC, and NPG personnel to gain an understanding of the risk
                                                            
4
     Substitution of craft refers to substituting craft with a similar skill set who belong to a different union.
5
     The intent of TVA’s ERM process is to provide a common risk management assessment process and
     methodology at TVA.
6
     When this review was initiated, the organizations in scope were FGD&C, FPG, Nuclear Generation
     Development and Construction, and NPG. During this review, TVA announced an organizational
     realignment, which affected the organization names. We selected these organizations because they
     utilize the largest contractor craft labor workforce.  
Audit 2011-14158                                                                                             Page 2

                                                           TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                 Audit Report


       identification and mitigation process including mitigation plans and actions to
       address the risk of craft labor shortage.
      Surveyed international representatives for unions considered by TVA to have
       critical craft labor positions7 to obtain an understanding of their role in
       reducing the risk of craft labor shortages and to identify concerns related to
       labor availability.
      Obtained and reviewed TVA Standard Programs and Processes to gain an
       understanding of staffing and workforce planning and enterprise risk
       management.
      Obtained and reviewed project agreements to gain an understanding of
       staffing and workforce planning and labor requirements.
      Obtained and reviewed available ERM risk assessment data for FY 2000
       through July 20118 to determine past and present mitigation plans for craft
       labor shortages. In addition, we obtained ERM risk information for FY 2012 to
       determine whether there were any additional mitigation plans.
      Obtained documentation including outage data and craft labor studies for
       recent TVA projects to determine whether any potential or actual labor
       shortages had been identified and associated mitigation actions.
      Researched craft labor trending statistics by means of U.S. Census Bureau,
       Tennessee Department of Education, U.S. Bureau of Labor Statistics, state
       energy consortiums, and newspaper articles.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

FINDINGS
There are two driving factors behind the risk of craft labor shortages:
(1) competition for labor from other companies including, but not limited to, other
utilities and (2) a shrinking labor pool due to retirements and decreases in the
number of entrants to the trades and labor profession. Based on our review of
TVA’s plans and actions to mitigate these risks and their potential effects, we
determined plans and actions were inadequate to aid in the achievement of long-
term future goals as identified in TVA’s IRP. Specifically, we determined risk
mitigation actions related to competition need improvement and deficiencies
existed in risk planning and mitigation related to the shrinking labor pool. In
                                                            
7
     These critical positions include pipefitter/welders, boilermaker/welders, electricians, and ironworkers.
8
     We did not review ERM documentation for 2000 and 2005 due to the unavailability of the documentation.
     According to TVA’s Chief Risk Officer, prior to 2006 limited and sporadic risk management
     documentation was available.
Audit 2011-14158                                                                                      Page 3

                                                           TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                Audit Report


addition, we noted improvements could be made to the process for assessing
and monitoring risk related to craft labor shortages.

Mitigation Actions for Shortages Due to Competition Need Improvement
As stated above, external craft labor is obtained from local and nonlocal unions
through contractors. Incentives for attracting contractor craft may include
increased pay and lengthier work schedules, which allow the individual to stay in
one place for a longer period of time. Two of D&LR’s actions for mitigating the
risk of craft labor shortages address these incentives. Based on discussions with
TVA personnel, staffing shortages have been mitigated by these actions;
however, we noted reliance was placed on outside parties to monitor competition
risk and carry out mitigation actions. In addition, certain mitigation actions
conflicted with TVA’s Diet and Exercise initiative.9

Reliance Placed on Outside Parties to Mitigate and Monitor Risk Due to
Competition
Rather than assessing and monitoring the internal and external business
environments to identify potential craft labor shortages resulting from competing
projects, TVA relies on contractors to monitor competition risk. Specifically, TVA
relies heavily on information obtained and provided by its contractors and union
halls to monitor the risk of potential shortages. TVA utilizes the information to
schedule outages and other operational and construction projects. Monitoring
competition risk is an important component in determining the severity and
likelihood of craft labor shortages.

TVA’s outage optimization team, comprised of employees in GC,10 conducts
periodic meetings to create detailed outage schedules with input from contractors
and union halls as well as TVA organizations such as NC, NPG, and Generation.
The outage optimization team obtains manpower information from TVA’s alliance
partners11 to create outage schedules for the next 4 years. According to the
outage optimization team, nuclear outages have priority and are scheduled prior
to fossil plant outages. D&LR personnel informed us if there was a forced
outage, craft labor would be moved from the planned outage job to work the
forced outage. The outage optimization team also stated nuclear personnel may
not provide them with complete contractor craft data due to their inability to
obtain this information. Specifically, one reason provided for this lack of data is
that contractors subject to fixed price contracts may not provide craft data
because they are not obligated to provide such information. Providing accurate
and complete data to the outage optimization team permits effective creation of
schedules to allow for mitigation of craft labor shortages.


                                                            
9
     TVA’s Diet and Exercise initiative was announced on February 9, 2012. This initiative included making
     changes within cost areas to provide immediate savings or cost reductions and sustaining those cost-
     reduction programs to maintain TVA’s health.
10
     These participants were formerly FPG and FGD&C employees.
11
     Alliance partners are contractors who have formed a partnership with TVA. Information is gathered from
     them as well as other contractors to aid in the determination of the outage schedule.
Audit 2011-14158                                                                                    Page 4

                                                           TVA RESTRICTED INFORMATION
Office of the Inspector General                                                               Audit Report


TVA directs contractors to complete labor studies for construction projects
exceeding a certain dollar threshold. We reviewed craft labor studies prepared
by contractors responsible for certain TVA projects to determine whether
shortages were expected. Labor studies included statistics for the number of
craft required to complete the project, probability of craft labor shortages,
utilization of traveler craft rather than local craft, and indications of potential use
of substitute craft. A craft labor study recently completed as part of the
Sequoyah Steam Generator Replacement project mentioned shortages were
expected to occur in the pipefitter craft. This was confirmed by the Senior
Program Manager, D&LR, who stated D&LR was currently working with the
unions to implement an agreement which would allow for substitutions of
boilermakers for pipefitters12 on the Sequoyah Steam Generator Replacement
project.

These labor studies, which are created for certain projects, only provide (1) a
snapshot of known internal and external competing projects at a specific moment
in time and (2) information based on the projected length of the project. A
centralized labor study constructed and updated by TVA on an ongoing basis
could provide more valuable information related to potential labor shortages and
to aid in planning of all TVA projects. In addition, duplication of effort could be
reduced, which creates opportunities for cost savings.

As stated previously, one of the actions TVA is utilizing to mitigate the risk of craft
labor shortages is the substitution of one craft with another craft having a similar
type of skill sets necessary for the job. To substitute craft, training may be
necessary to enhance the skill set of the individual. Craft training programs,
another TVA mitigation action, designed to increase the skill set of the craft,
including substituted craft, are provided by the unions. According to TVA
management, there is concern related to the skill level of current craft; therefore,
the potential for concerns related to substitute craft exists. This could pose a risk
of decreased productivity considering substitute craft may not be as qualified to
perform jobs. TVA contributes monies to the craft training programs; however,
there is limited monitoring13 of skills training performed by TVA.

According to the Senior Program Manager, D&LR, the Electric Power Research
Institute Standardized Task Evaluation program would be a good option for TVA
to effectively measure the skill level of craft employees. The program is
designed to (1) help utilities reduce training costs, (2) make more efficient use of
supplemental workers, (3) improve training records management, and (4) help
workforce provider organizations streamline their qualification procedures.
Without monitoring the craft training mitigation action, it would be difficult to
determine whether both substitutions and craft training are adequately mitigating
the risk.
                                                            
12
     Boilermakers are utilized within fossil operations, whereas pipefitters are utilized within nuclear
     operations. These types of craft share a similar skill set, however, work in different environments.
13
     According to the Senior Program Manager, D&LR, the NPG tests craft labor in the areas of welding and
     rigging. In addition, we noted there was limited monitoring of apprentices as discussed below.
Audit 2011-14158                                                                                   Page 5

                                                           TVA RESTRICTED INFORMATION
Office of the Inspector General                                                               Audit Report


Mitigation Actions Conflict with TVA’s Diet and Exercise Initiative
TVA uses two primary tools to mitigate the risk of shortages due to competition:
the scheduling of planned outages and increasing compensation and benefits.
As discussed below, these tools sometimes conflict with TVA’s Diet and Exercise
initiative.

The primary tool utilized by TVA to mitigate the risk of craft labor shortages due
to competition is outage scheduling. To aid in the scheduling of planned
outages, discussions among TVA personnel, including the outage optimization
team, occur. As stated previously, the outage optimization team is comprised of
employees in GC,14 and their responsibilities include conducting periodic
meetings to create detailed outage schedules with input from contractors and
union halls as well as TVA organizations such as NC, NPG, and Generation. In
addition, a D&LR employee semiannually holds informal discussions with other
utilities in the Southeast about existing projects and scheduling to avoid bidding
issues between competitors and shortages of craft labor during outages. The
outage optimization team, according to TVA personnel, currently is working to
lengthen outage schedules so that craft can transition from one job to the next to
provide a steady stream of work for the existing contractor craft labor workforce
in the Tennessee Valley.

Another tool utilized by TVA to mitigate the risk of competition is the increase of
compensation and benefits. Agreements between TVA and the Council require
TVA to pay prevailing wage rates15 and establish the methodology of calculating
those rates. While TVA is required to pay prevailing wage rates, there are
certain circumstances where TVA may pay in excess of these rates referred to as
premium pay. This may occur when there are craft shortages for existing
projects. For example, during the Lagoon Creek Combined Cycle Plant
construction project, there was a shortage of welders, which led TVA to increase
compensation to attract welders to complete the project. D&LR personnel stated
they prefer this action to be the exception rather than the rule.

Inconsistencies exist between the outage scheduling and increased
compensation and benefits mitigation actions and TVA’s Diet and Exercise
initiative. As stated previously, TVA’s Diet and Exercise initiative included
making changes within cost areas16 to provide immediate savings or cost
reductions and sustaining those cost-reduction programs to maintain TVA’s
health. Current mitigation actions designed to attract and retain contractor craft
labor do not align with TVA’s current cost-cutting efforts, which include
decreasing contractor costs. According to the Senior Program Manager, D&LR,
core contractor craft employees have been cut back at several nuclear plants
and almost completely removed at multiple fossil plants as part of the Diet and
                                                            
14
     These participants were formerly FPG and FGD&C employees.
15
     Prevailing rate is defined in TVA Standard Programs and Processes 11.1.6, “Contractor Workforce
     Management,” as “ . . . a minimum rate of compensation, based on relevant data, determined to be most
     common for workers performing similar work in a particular locality.”
16
     These cost areas include nonfuel inventory, overtime, vacancies, management consultants, and
     managed task and staff augmentation contractors.
Audit 2011-14158                                                                                   Page 6

                                                           TVA RESTRICTED INFORMATION
Office of the Inspector General                                             Audit Report


Exercise initiative. Reductions also include decreasing the number of contractors
used during outages. Cost-saving actions similar to this could increase the risk
of future craft labor shortages due to the potential loss of contractor craft to
projects outside of TVA. Utilizing more of the annual workforce during outages
rather than contractor craft labor could also result in decreased productivity and
lengthened outage and project schedules in the short-term due to the reliance on
annual craft that may have to refresh certain skill sets. While outage scheduling
and increased compensation and benefits mitigation actions may be valid, the
actions may no longer be a viable option based on the inconsistency with TVA’s
Diet and Exercise initiative. In addition, we determined, based on discussions
with TVA personnel and review of ERM documentation, no efforts had been
made to reassess the risk severity or mitigation strategies for craft labor staffing.

Mitigation Plans for Shrinking Labor Pool Risk Are Deficient
TVA is currently lacking in strategies to mitigate the risk of a shrinking labor pool.
According to TVA’s ERM document, mitigation plans for addressing this risk
consist of (1) craft training programs and (2) benchmarking with the Utility,
Building, and Construction Industry Employer Association for additional mitigation
strategies. However, we noted the first mitigation was ineffective and the second
was not being performed. We noted there were two additional actions taken with
regard to mitigating this risk; however, these actions were limited and in our
opinion, do not adequately mitigate the risk. Specifically, actions include
contributing monies to the Helmets to Hardhats program and partaking in
discussions with trades and labor educators and graduates.

Craft Training Programs Mitigation is Ineffective and Does Not Address Shrinking
Labor Pool Risk
TVA contributes monies to craft training programs, which include skills training
for apprentices; however, contractors and unions are relied on to provide the
training. According to two of the surveyed union representatives, much of this
training is performed on the job. D&LR personnel stated discussions are held
with the unions, contractors, and Building and Trades Association as to the
importance of apprenticeship programs to cultivate the craft. In addition, TVA
agreements include language allowing for up to 33-1/3 percent of work on TVA
projects to be performed by apprentices. However, we noted there was limited
monitoring performed by TVA of the training programs. Without monitoring, TVA
does not know whether the risk is being managed.

According to D&LR personnel, in the past the unions submitted quarterly
apprenticeship program reports to TVA for review; however, those reports have
not been submitted in over 10 years. Instead, a specific target percentage has
been set by TVA for jobs to utilize a certain percentage of apprentices. This
target is being monitored for TVA’s alliance partners who primarily work TVA
outages; however, the 20-percent target set by TVA is not being met.
Explanations provided by TVA personnel for the lack of apprentices were
(1) reductions in craft labor staffing levels negatively affect the number of
apprentices because they are generally the first to be dismissed and (2) the

Audit 2011-14158                                                                 Page 7

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                              Audit Report


hours of work and associated compensation levels do not provide enough money
to maintain cost of living. In addition, we noted union memberships are on the
decline, which may also affect the apprenticeship program.17 According to
surveyed union representatives, apprentices drop out of the apprenticeship
program due to a lack of commitment or discipline, because work is considered
too difficult, lack of work within the Valley, or due to drug and alcohol abuse.
Furthermore, the general consensus among some TVA personnel in Generation
and a union representative we surveyed is the younger generation is more
interested in jobs that require a college education rather than learning a trade.

According to a 2007 Edison Electric Institute presentation,18 the traditional
approach to acquiring necessary craft labor has generally been to rely on
independent contractors to acquire workers from a deep and liquid pool.
However, in the emerging craft labor market, contractors and labor supply
sources may not, on their own, create solutions in time to meet utility needs.
Furthermore, the presentation stated both craft labor and contractors perceive
workloads to be a temporary spike and are likely to be weak partners in craft
labor solutions that seek to expand supply because their best risk/return solution
is to maximize existing supply/capabilities. In addition, we determined craft
training programs for apprentices only focus on the individuals who have already
decided to join the trades and labor workforce and are not designed to attract
new entrants.

Benchmarking Mitigation Action Was Not Being Performed
TVA’s ERM document also contains a mitigation strategy related to
benchmarking with the Utility, Building, and Construction Industry Employer
Association for additional mitigation actions. We interviewed TVA personnel
responsible for risk ownership, risk management, and benchmarking; and none
could provide an explanation as to the existence of the association or any
additional benchmarking. In addition, we performed Internet and TVA Intranet
searches and could not confirm the existence of the association. D&LR
personnel stated this mitigation action could refer to the informal meetings they
have with other utilities within the Southeast as noted previously or the
benchmarking performed to determine prevailing wages. Based on discussions,
no benchmarking was performed to identify additional mitigation actions.

Additional Mitigation Actions Were Limited in Mitigating Risk
Additional actions taken by TVA to mitigate the risk of a shrinking labor pool
include contributions to the Helmets to Hardhats program as well as speaking to
local trades and labor educators and graduates. In January 2012, TVA began
contributing to the Helmets to Hardhats program, which aids in the attraction of
former military personnel to the trades and labor profession. Since these efforts
just began, we were not able to discern whether this program was achieving its
intended purpose. We were also informed by D&LR personnel that the Senior
                                                            
17
     Data was obtained from the U.S. Bureau of Labor Statistics for 2009 through 2011.
18
     Scott Madden Management Consultants, Planning Strategically for the Workforce of the Future – EEI
     Strategic Issues Roundtable, February 7-9, 2007.
Audit 2011-14158                                                                                   Page 8

                                                           TVA RESTRICTED INFORMATION
Office of the Inspector General                                                         Audit Report


Program Manager, D&LR, attends graduation ceremonies at local trades and
labor schools to discuss the benefits of the profession and potential careers with
TVA’s contractors. The Senior Program Manager, D&LR, also attends
Southeastern Manpower Tripartite Alliance meetings to discuss craft labor with
industrial owners, contractors, and labor organizations. In addition, NC
personnel responsible for the construction of Bellefonte Nuclear Plant stated
contact had been made with local trades and labor schools to discuss curriculum.
While these efforts may be beneficial to TVA, they are limited and only focus on
individuals who have made the decision to enter the trades and labor workforce.

TVA personnel also informed us that in the past, TVA had representation at the
Tennessee Energy, Industry, and Construction Consortium (TEICC) meetings.
Participation in the TEICC included discussions and actions for educating middle
and high school students, as well as parents, about the benefits of the trades and
labor profession. However, participation in the consortium no longer occurs.
While participation in the TEICC would be beneficial to TVA, we noted middle
and high school participation in career technical programs only increased
approximately 7 percent as of 201119 since the commencement of the TEICC in
2007. Of that increase, there was approximately a 19-percent increase in high
school student participation in trades and industrial programs; however, there
was over a 40-percent decline in the number of middle school students
participating in career technical programs. This indicates that while participation
in the TEICC meetings would be beneficial, it should not be the only action taken
by TVA to mitigate the risk of a shrinking labor pool. Also, we noted there has
been no TVA participation in state consortiums outside Tennessee.

While TVA personnel admit potential craft labor shortages are a concern for the
industry, the above actions do not appear to take into consideration the fact that
craft labor shortages are an impending problem for TVA’s long-term future.
Rather, the above actions focus more on the quantity and quality of the current
craft labor workforce within the next few years. Due to the aging workforce and
the fact that enrollment within the trades and labor arena is decreasing, there is a
risk that individuals with the skill set needed to maintain TVA’s fleet will
disappear. According to the U.S. Census Bureau (as shown in Table 1), the
population enrolled in vocational programs, including trades and labor, has
significantly decreased over the past several years. Despite the slight upswing in
2009, which a CNBC news article attributes to the economy, the numbers
continued to drop in 2010.




                                                            
19
     This information was obtained from the Tennessee Department of Education.
Audit 2011-14158                                                                             Page 9

                                                           TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                               Audit Report



                                   U.S. Census Population Enrolled in 
                                    Vocational School (in thousands)
                 4600

                 4400

                 4200

                 4000

                 3800

                 3600
                     2002               2003            2004    2005   2006   2007      2008   2009      2010
                                                                                                        Table 1

In addition to the decline in the vocational school enrollment, the utility industry is
faced with the fact that approximately 53 percent of its workforce is close to or of
the retirement age.20 This, along with the fact that the highest number of
individuals enrolled in vocational schools is near or of retirement age and the
lowest number of enrollees, excluding those 65 and older, are 15 to 2421 years of
age, may be concerning to TVA’s future operation (see Table 2).


                                   U.S. Census Population Enrolled in 
                                    Vocational School (in thousands)
                 1400

                 1200
                                                                                           ..15 to 19 years old
                 1000
                                                                                           ..20 to 24 years old
                   800
                                                                                           ..25 to 34 years old
                   600
                                                                                           ..35 to 44 years old
                   400                                                                     ..45 to 64 years old
                   200                                                                     ..65 years and over
                       0
                             2002 2003 2004 2005 2006 2007 2008 2009 2010
                                                                                                        Table 2


                                                            
20
     As of 2008, this was the percentage of potential utility workforce retirements reported by the U.S. Bureau
     of Labor Statistics, Career Guide to Industries, 2010-2011 edition.
21
     According to U.S. Census Bureau data, individuals enrolled in school below the college level are not
     asked about vocational enrollment.
Audit 2011-14158                                                                                                  Page 10

                                                           TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                    Audit Report


This also poses a risk to the construction industry, which could be detrimental to
TVA’s future plans for constructing facilities to add to TVA’s generation.
According to an advertisement for the Helmets to Hardhats program, the former
Senior Vice President (SVP), Communications, who is currently the SVP,
D&LR,22 “We have a skilled labor shortage in the construction industry. One of
the biggest challenges we face is the shortage of qualified skilled craftsmen to do
maintenance work and outage work so that our power plants will run efficiently all
of the time in order to meet the growing needs for reliable, low-cost energy.”
TVA’s IRP,23 which guides the Chief Executive Officer in energy resource
planning and selection, included plans for:

      Increasing the contribution of nuclear generation 1,150 to 5,900 megawatts
       with the first new unit after Watts Bar Nuclear Plant coming online no sooner
       than 2018.
      Using natural gas as an intermediate supply source, which may include
       constructing additional combined-cycle plants.

U.S. Bureau of Labor Statistics’ employment projections for 2010 through 2020
state “Industries and occupations related to health care, personal care and social
assistance, and construction are projected to have the fastest job growth
between 2010 and 2020.” Specifically, one job in the construction industry
expected to have a higher than average growth rate is the pipefitter that TVA
utilizes.24 This is concerning since (1) there are fewer individuals entering the
trades and labor workforce, (2) approximately 53 percent of the workforce is near
or at retirement age, and (3) TVA is already experiencing shortages of
pipefitter/welders as previously stated. According to the 2007 Watts Bar Unit 2
labor study, both pipefitters and electrical crafts presented the greatest staffing
concern, and it was likely that at least 50 percent travelers would be needed to
reach the peak requirements for each of these crafts. The Sequoyah Steam
Generator Replacement Project labor study also stated staffing concerns with
these types of craft. These factors could jeopardize TVA’s future plans for
increasing generation through construction of facilities as documented in the IRP.

Risk Identification and Assessment Process Needs Improvement
The risk identification and assessment process for the craft labor staffing risk
needs improvement. Specifically, we determined (1) organizations did not
collaborate effectively with respect to risk identification and mitigation and
(2) risks, including the effectiveness or progression of mitigation actions, were
not monitored. In addition, we identified a lack of knowledge transfer for
positions crucial to risk management.


                                                            
22
     The SVP, D&LR, served as the SVP, Communications, from March 2006 through April 2007.
23
     The TVA Board of Directors approved the IRP on April 14, 2011.
24
     Fossil and Nuclear personnel identified ‘at-risk’ positions at TVA as being pipefitter/welders,
     boilermaker/welders, electricians, and ironworkers. These positions are vital not only to the operation
     and maintenance of TVA’s facilities but also to the construction planned by TVA.
Audit 2011-14158                                                                                       Page 11

                                                           TVA RESTRICTED INFORMATION
Office of the Inspector General                                               Audit Report


Lack of Collaboration Regarding Risk Identification and Mitigation Actions
According to the TVA’s ERM Guidelines, “Many risks affect multiple
organizations within TVA. These “cross-cutting” risks require appropriate
communication and coordination across SBUs. The ERM organization will
promote and facilitate cross-cutting risk discussions to enhance TVA's ability to
effectively manage the risks.” Coordination of these “cross-cutting” risks could
help decrease potential duplication of efforts across TVA and improve
prioritization of enterprise-wide risks. As stated previously, the craft labor
shortage risk was identified on TVA’s ERM as one of the top five risks in two
categories. Specifically, the risk was identified by D&LR as the risk of staffing
resources for outages and projects and categorized as a talent management risk.
By identifying the risk, D&LR was assigned as “owner” of the risk, even though all
TVA operating organizations are affected by craft shortages. The risk was also
identified by GC, formerly FGD&C, as the risk of contractor craft quality and
availability and categorized as a capacity expansion and construction risk. Of the
top five risks listed on the ERM under these categories, the craft labor staffing
risk was ranked fourth in the talent management category, whereas, it was
ranked as the top risk in capacity expansion and construction. According to
TVA’s ERM document, there were no mitigation plans provided for the risk
identified by GC. This is not in accordance with TVA’s ERM Guidelines which
state, “If it is decided that a risk should be mitigated, an action plan must be
developed to ensure that the organization’s risk management plans are executed
. . . Each risk mitigation plan must have detailed actions that support it. Each
action in the plan must be clearly defined, measurable, and have clear
accountability.”

We also noted one of the mitigation strategies for addressing craft labor shortage
was also identified as a risk on the ERM. As stated previously, D&LR identified
four mitigation activities including (1) scheduling outages to enable a steady
stream of work to the already existing labor force in the Tennessee Valley,
(2) craft training programs, (3) benchmarking with the Utility, Building, and
Construction Industry Employer Association for additional mitigation actions, and
(4) increasing compensation and benefits marginally above market levels and/or
utilizing other crafts with the desired skill sets. Of these four mitigation activities,
outage scheduling is the primary tool used to mitigate the risk of craft shortages
from competition. However, this mitigation was also ranked as one of the top five
risks in the internal processes and procedures risk category.

To effectively mitigate the risk, collaboration must exist. While D&LR is
instrumental in getting the right people, the operating organizations must
communicate their long-term needs, as well as identify alternative mitigation
strategies to reduce the need for craft labor. To prevent duplication of efforts
regarding risk assessment and associated mitigation actions, organizations
should collaborate on risks and associated mitigation plans. This collaboration
process would help determine the severity of the risk and whether there are gaps
in mitigation strategies.


Audit 2011-14158                                                                 Page 12

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                              Audit Report


Assessment of Risk Severity Needs Improvement
Monitoring of risk severity and related effectiveness and progression of mitigation
actions did not occur for the craft labor shortage risk. We noted during our
review TVA did not know the number of contractors it employed. Without
knowing the number of contractors utilized by TVA, we question how the risk and
its severity were determined. As stated previously, certain actions for mitigating
craft labor risk were not performed by TVA. Instead, TVA relies on the
contractors to monitor and mitigate the risk of a craft labor shortage. Without
monitoring the mitigation actions, it would be difficult for TVA to determine
whether craft labor was still a risk and if so, the severity of the risk. TVA’s ERM
Guidelines state strategic business units will be responsible for periodically
reviewing treatment plans to measure their progress, effectiveness, and
appropriateness. However, we noted mitigation strategies are only being
reviewed on a semiannual basis as stated in the ERM Guidelines. In addition,
according to page 15 of Enterprise Risk Management Best Practices: From
Assessment to Ongoing Compliance,25 “An ERM program will not be effective if it
is designed and implemented but not monitored after initial completion.” The
accuracy of the ERM document is imperative in TVA’s risk assessment process
to ensure “ . . . proper prior planning prevent[s] poor performance . . . ”, the
Six Ps of success.26

In addition to the above, we noted the craft labor mitigation actions did not
consider the risk of a shrinking labor pool. All mitigation actions assume a craft
labor pool exists; however, as noted previously, that may not be the case. One
of the reasons for this assumption could be that TVA’s ERM guidelines state
organizations should measure each risk probability of occurrence in the next 3 to
5 years. Given the predicted shortage of craft labor, future planned construction
noted in TVA’s IRP, and the time horizon associated with both, consideration of
the risk probability of occurrence outside of that time period may be necessary.
In addition, since the existence of a craft labor pool is an uncertainty for which
TVA has no control, it is necessary for TVA to identify alternative mitigation
strategies within the control of the organization. These may include identifying
opportunities for implementing new technology and maximizing process
efficiencies as well as other strategies for reducing the need for craft labor.

Lack of Knowledge Transfer for Positions Crucial to Risk Mitigation
Based on discussions with TVA personnel, reliance for carrying out risk
mitigation actions was placed on the Senior Program Manager, D&LR, with
limited assistance from the affected organizations. This individual attends
meetings and events pertaining to craft labor, negotiates and administers project
labor agreements, and serves as the primary point of contact for the unions. The
current incumbent was previously a General Manager in the Fossil Operations
and Outage Improvement organizations. Knowledge and experience gained
                                                            
25
     Anne M. Marchetti, Enterprise Risk Management Best Practices: From Assessment to Ongoing
     Compliance.
26
     The Six Ps of success were mentioned as a way to ensure success by TVA’s Chief Executive Officer in
     the May 25, 2012, edition of TVA Today.
Audit 2011-14158                                                                                 Page 13

                                                           TVA RESTRICTED INFORMATION
Office of the Inspector General                                           Audit Report


from having this operational background is beneficial with regard to maintaining
TVA relationships with unions and contractors. According to D&LR personnel,
there is no individual assigned to assume responsibilities in the event the current
incumbent is not able to perform his job duties. This is important since the job
has been identified as crucial due to the building of relationships with contractor
and union personnel as well as knowledge transfer related to project
agreements.

CONCLUSION
Craft labor is vital to the success of TVA. It is one of the main components
utilized in the maintenance and construction of TVA plants and will continue to be
a factor in TVA’s future plans. Because of this, craft labor shortage risk was
identified by TVA as one of its top risks to be mitigated. Despite this, there are
differing opinions as to whether TVA is currently experiencing craft labor staffing
shortages. Some TVA personnel believe there is currently no risk associated
with craft labor shortages because the current supply of workers seems to
exceed the demand; however, others believe the already shrinking craft labor
pool is being stretched to its limits by TVA and other competitors vying for labor
necessary to complete planned or unexpected projects. These differing opinions
could play a role in TVA’s current cost-cutting initiatives. If contractor costs are
cut too deeply, the Diet and Exercise initiative may undermine the current
mitigation actions for addressing craft labor shortages.

TVA has passed the management of craft labor risk related to the shrinking labor
pool to contractors, unions, and other outside organizations. While future craft
labor shortages have been identified as an industry problem, little or no action
has been taken by TVA to address this risk. Because TVA does not know how
many contractors it actually employs, we question whether TVA realizes the
severity of the craft labor shortage risk. In our opinion, TVA, as part of its
economic development mission, has an obligation to participate in efforts to
replenish shrinking craft labor pools. In addition, to achieve future long-term
goals as identified in TVA’s IRP, it is necessary to develop actions for attracting
and retaining craft labor and/or look for alternative solutions to achieve those
goals.




Audit 2011-14158                                                             Page 14

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                             Audit Report


RECOMMENDATIONS
We recommend the Senior Vice President, D&LR, in conjunction with GC, Coal
Operations, Gas Operations, NC, and NPG:

1. Obtain more accurate and useful contractor craft data to utilize in the outage
   planning process.

2. With respect to the risk of craft labor shortages arising from competition:

        Implement actions to monitor and/or mitigate the risk rather than rely on
         outside parties to do so.
        Consider performing and centralizing labor studies for TVA projects.

3. Monitor training of craft and apprenticeship records to determine whether the
   mitigation action is adequately addressing the risk of craft labor shortages. In
   lieu of monitoring, consider implementing Electric Power Research Institute
   Standardized Task Evaluations.

4. Reassess the risk severity and mitigation strategies to verify risk severity and
   determine whether additional/alternative mitigation actions need to be
   implemented to align with current management initiatives such as Diet and
   Exercise.

5. Update the ERM documentation to only reflect those mitigation strategies that
   are planned to be utilized or are being utilized.

6. With respect to the risk of craft labor shortages arising from a shrinking labor
   pool, identify:

        Additional options for attracting new entrants to the trades and labor
         workforce.
        Opportunities where craft labor could be reduced.

7. Collaborate with Risk Management to avoid duplication of risk across ERM
   categories and assess whether gaps occur in mitigation strategies.

8. Establish an internal process for monitoring the risk, severity, and mitigation
    actions when changes occur in the business environment and on a more
    frequent basis than semiannually.

9. Institute a process for transferring knowledge and building relationships within
    and outside TVA from the Senior Program Manager, D&LR, to other
    individuals within D&LR.



Audit 2011-14158                                                                  Page 15

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                           Audit Report


MANAGEMENT’S RESPONSE AND OUR EVALUATION
TVA management agreed with the findings and recommendations but took
exception to the usage of a quote included in the report, which was obtained from
a Helmets to Hardhats brochure. Specifically, management believed the quote
was included to justify one of the findings and took exception to including the
quote since it was made more than 5 years ago. While the quote is not the basis
of our findings, it was utilized to support the fact that craft labor shortages have
been not only a TVA risk, but an industry risk for the past several years. By
using the quote from the brochure, it was our intent to credit D&LR personnel for
recognizing craft labor shortage as a risk.




Audit 2011-14158                                                             Page 16

                                  TVA RESTRICTED INFORMATION
                             APPENDIX
                             Page 1 of 2




TVA RESTRICTED INFORMATION
                             APPENDIX
                             Page 2 of 2




TVA RESTRICTED INFORMATION
